              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report

Management of Oak Ridge Radio
Transition Projects




DOE/IG-0653                             June 2004
                                                     2

      •   Create gaps in radio coverage, preventing Y-12 protective forces from maintaining
          communications with the rest of the Reservation or its own dispatcher in the event of an
          emergency; and,
      •   Be inconsistent with Department of Commerce regulations that generally require Federal
          organizations located in proximity to one another to increase efficiency by sharing radio
          communications systems.
Y-12 initiated its separate system because it was unable to reach agreement with the Operations
Office regarding an overall system deployment or capability approach, and the Site Office
Manager decided to move forward with a Y-12 specific system based on the delayed
implementation of the "Wide Area Radio System." Y-12, however, did not reconsider the
implementation of its separate system once the "Wide Area Radio System" was funded and
construction had begun. As a result, planned radio projects at the Oak Ridge Reservation will
expend funds that could be better used for satisfying other critical mission needs.
The issues in this report highlight the difficulty Departmental components have in reaching
agreement on issues that cross programmatic lines. The Office of Inspector General has reported
similar coordination issues in several recent reports. These issues point to the need for increased
cooperation between the Department's major programs and policy offices. In this report, we made
several recommendations designed to improve coordination and help ensure that the radio system
ultimately chosen for the Oak Ridge Reservation is the most beneficial to the Department as a
whole.
MANAGEMENT REACTION
Management concurred with the report's finding and recommendations. Management generally
agreed that a single radio system would better meet the needs of the Reservation and indicated that
work had been suspended on the separate Y-12 system. In subsequent discussions with
management, the National Nuclear Security Administration and the Office of Science committed to
work together to identify a single radio system that meets the needs of the entire Oak Ridge
Reservation in the most cost effective manner. Management's comments are included in Appendix
3.

Attachment
cc:       Under Secretary for Energy, Science and Environment
          Assistant Secretary for Environmental Management
          Director, Office of Management, Budget and Evaluation/Chief Financial Officer
          Chief Information Officer
REPORT ON MANAGEMENT OF OAK RIDGE RADIO
TRANSITION PROJECTS




TABLE OF
CONTENTS



              System Transition Efforts

              Details of Finding............................................................. 1

              Recommendations .......................................................... 3

              Comments ....................................................................... 4


              Appendices


              1. Objective, Scope, and Methodology .......................... 5

              2. Prior Reports.............................................................. 6

              3. Management Comments............................................ 7
SYSTEM TRANSITION EFFORTS

Background         To satisfy requirements of the Telecommunications Act of 1992
                   and to facilitate performance of its duties as the designated lead
                   organization for emergencies, the Oak Ridge Operations Office
                   (Operations Office) developed a plan to install a Wide Area Radio
                   System (WARS) to provide radio coverage to the entire Oak Ridge
                   Reservation (Reservation). The Operations Office originally
                   proposed the estimated $6.2 million WARS in March 1999, but
                   was unable to obtain funding until September 2003. In the interim,
                   the Y-12 National Security Complex (Y-12) decided to proceed
                   with a separate radio replacement system at a cost of about
                   $2.1 million. Separately, in September 2003, the Operations
                   Office signed an interagency agreement with the U.S. Army
                   Communications-Electronics Command (CECOM) to construct a
                   WARS system to cover the remainder of the Reservation at a cost
                   of $4.5 million.


Deployment of      Development of two separate radio systems to service Y-12 and
Multiple Systems   the remainder of the Oak Ridge Reservation will be more costly
                   to construct and maintain than a single, integrated system. In
                   addition, the deployment of separate systems would result in gaps
                   in coverage and eliminate items needed to protect Y-12 from
                   unplanned outages or equipment failures. Maintaining separate
                   systems will also be inconsistent with statutory requirements
                   regarding sharing of radio systems between co-located Federal
                   organizations.

                                 Infrastructure and Maintenance Costs

                   Constructing two separate radio systems at the Reservation will
                   result in the expenditure of an estimated $900,000 more than
                   necessary in infrastructure costs and increase annual maintenance
                   costs by about $475,000. These costs include $500,000 to develop
                   a bridge between the two systems to permit communication with
                   one another - something unnecessary under a single system. In
                   addition, building two separate systems would result in an
                   additional $400,000 in construction costs when compared to the
                   estimated cost of adding Y-12 coverage to WARS. The WARS
                   and Y-12 systems are expected to cost $4.5 million and
                   $2.1 million respectively, while an expanded version of WARS
                   would cost $6.2 million. In addition, Y-12's radio shop has
                   budgeted approximately $475,000 annually for maintenance on
                   their system; a cost that could be eliminated if WARS were
                   constructed as originally planned.




Page 1                                                         Details of Finding
                                        Coverage and Contingency

                    Under the current approach, off-site protective force response
                    capability through radio communications would also be degraded
                    or hindered at Y-12. For example, the limited coverage area
                    provided by Y-12's planned system would not allow its site
                    protective forces to maintain open communications with the Y-12
                    dispatcher in the event of a criminal pursuit. Such a level of
                    communication during pursuit is required by Departmental
                    directive should felony or misdemeanor suspects flee off-site.

                    We also found that maintaining separate systems would exacerbate
                    the impact of failed equipment. Since the planned Y-12 system
                    only utilizes one tower, a failure could result in Y-12 losing the
                    ability to communicate with the rest of the Reservation and
                    limiting the site to only 14 frequencies. Because Y-12 has over
                    1,900 users with over 2,000 radios, equipment failure could
                    increase the potential for overloading certain channels and make
                    communications impossible. Such weaknesses, however, would
                    not be an issue with WARS as it uses a system that provides built
                    in redundancies by broadcasting from three independent towers
                    simultaneously. Furthermore, the Y-12 official responsible for
                    radio systems could not provide a detailed analysis to demonstrate
                    how the planned Y-12 system would provide a viable option for
                    communicating between sites.

                                      Federal Sharing Requirements

                    The planned separate efforts of the Operations Office and Y-12
                    would not conform to requirements established by the Department
                    of Commerce (Commerce) for promoting efficient use of radio
                    frequencies at the Federal level. Specifically, agencies are
                    required by Federal regulations (47 CFR 300) to share radio
                    communication systems within a 30-kilometer radius unless they
                    can demonstrate that a separate system is required to meet their
                    needs. To that end, the Office of the Chief Information Officer,
                    the only authorized interface with the Department of Commerce,
                    recently denied a request to obtain a separate license for the Y-12
                    effort because it violated the sharing requirements.


Site Agreement on   The initiation of plans for separate systems commenced because
on Radio System     the Operations Office and Y-12 could not agree on an overall
Upgrades            system deployment or capability approach. In particular, when




Page 2                                                           Details of Finding
                   the Operations Office had difficulty obtaining funding, Y-12
                   adopted a separate system approach. When funding was ultimately
                   obtained for a reservation-wide system, Y-12 officials elected to
                   proceed with a separate system. This decision was made despite
                   analyses by the Operations Office demonstrating that separate
                   systems would create coverage gaps and be more costly to
                   maintain. Y-12 officials also believed that WARS had capabilities
                   in excess of their needs and would ultimately have a higher cost for
                   their site.

                   However, based on our review, we determined that WARS was
                   designed to provide coverage needed for off-site communications
                   for the entire Reservation, something the Y-12 system cannot
                   provide, and be less costly than having two separate systems. In
                   response to the results of this audit, Y-12 officials recently
                   commissioned a study to determine how best to meet the site's
                   radio communications needs. The results of the study questioned
                   the technical merits and cost effectiveness of WARS.


Resource Demands   If the separate development of both WARS and the Y-12 system
                   continue, an opportunity would be missed to save about $900,000
                   in system infrastructure costs and as much as $475,000 per year in
                   system maintenance that could be better used to assist in meeting
                   other critical mission needs. Additionally, if this issue is not
                   resolved and current plans are allowed to proceed, the entire
                   Reservation may be unable to meet mandated deadlines for
                   licensing issues and may miss opportunities for improving
                   reservation-wide response capability and interoperability between
                   sites.


RECOMMENDATIONS    To ensure efficient use of Federal funds and that the radio
                   communication needs of the Reservation are effectively met, we
                   recommend that:

                   1. The Manager of the Y-12 Site Office suspend work on the
                      Y-12 system; and

                   2. The Associate Administrator for Management, National
                      Nuclear Security Administration, and the Deputy Director of
                      Operations, Office of Science, re-evaluate system needs and
                      come to an agreement regarding a radio system that meets the
                      needs of the entire Oak Ridge Reservation.




Page 3                                                           Recommendations
MANAGEMENT         Management generally concurred with the report's findings and
REACTION           recommendations and indicated that work on the Y-12 system had
                   been suspended. In separate subsequent discussions with the
                   Office of Science's Deputy Director of Operations and the National
                   Nuclear Security Administration's Director of Policy and Internal
                   Controls Management, both parties indicated that they would work
                   together to implement a radio system configuration that would best
                   meet the needs of the entire Reservation in the most cost effective
                   manner and in compliance with Federal requirements.


AUDITOR COMMENTS   Management comments are responsive to our recommendations.
                   Based on these comments, we made several changes to the body of
                   this report. In particular, modifications were made to
                   recommendation two to emphasize the need for cooperation in
                   reaching an agreement on a single system to satisfy Reservation
                   needs rather than directing the Department to implement a specific
                   system.




Page 4                                                                   Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the
              radio projects on the Oak Ridge Reservation were cost-effective
              and would provide sufficient capability to provide communications
              across the various organizations.


SCOPE         The audit was performed between September 2003 and June 2004
              at the following sites located in Oak Ridge, TN: Operations
              Office; Y-12 National Security Complex; Oak Ridge National
              Laboratory; and East Tennessee Technology Park. The audit
              examined radio systems planned by the Operations Office and
              Y-12.


METHODOLOGY   To accomplish our objective, we:

                 •   Reviewed Federal regulations such as the Commerce
                     National Telecommunications and Information
                     Administration (NTIA) Manual of Regulations,
                     Departmental directives and guidance pertaining to
                     communications needs;

                 •   Reviewed relevant reports issued by the Office of Inspector
                     General and the General Accounting Office;

                 •   Held discussions with officials and staff at various sites;
                     and,

                 •   Assessed site radio system planning documentation.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              Performance standards were not established for the area of radio
              communications and, therefore, we could not assess how they
              might have been used to measure performance. Because our
              review was limited, it would not necessarily have disclosed all
              internal control deficiencies that may have existed at the time of
              our audit. We did not rely on computer-processed data to
              accomplish our audit objective. An exit conference was held with
              management on June 14, 2004.




Page 5                                    Objective, Scope and Methodology
Appendix 2

                                  RELATED GAO REPORTS


•   TELECOMMUNICATIONS: History and Current Issues Related to Radio Spectrum
    Management (GAO-02-814T). The testimony described efforts by the NTIA to encourage
    efficient use of radio spectrum resources. Agencies are required to convert all land mobile
    radios to narrowband frequencies by a specified date (2008), but many agencies expressed
    their inability to meet the deadline.

•   TELECOMMUNICATIONS: Better Coordination and Enhanced Accountability Needed to
    Improve Spectrum Management (GAO-02-906). The report was the primary basis for the
    testimony described above.

•   TELECOMMUNICATIONS: Comprehensive Review of U.S. Spectrum Management with
    Broad Stakeholder Involvement is Needed (GAO-03-277). The report pointed out that the
    NTIA expressed difficulty in invoking its enforcement authority over agencies that do not
    meet mandated deadlines for narrowbanding and that the main enforcement tool available is
    to revoke frequency assignments from non-compliant agencies. It added that since this
    measure could interfere with the agencies' ability to carry out critical government functions,
    the NTIA finds it difficult to employ.

.




Page 6                                                                   Related GAO Reports
Appendix C




Page 7       Management Comments
Appendix C




Page 8       Management Comments
Appendix C




Page 9       Management Comments
Appendix C




Page 10      Management Comments
Appendix C




Page 11      Management Comments
Appendix C




Page 12      Management Comments
                                                                         IG Report No. DOE/IG-

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
